Case 3:16-cr-00113-TBR Document 196 Filed 06/11/18 Page 1 of 8 PageID #: 1218
USDC KYWD 245B (Rev. 02/16) Judgment in a Criminal Case Sheet 1

United States District Court
Western District of Kentucky
LOUISVILLE DIVISION

UNITED STATES OF AMERICA
V.

John G. Tomes, Jr.

JUDGMENT IN A CRIMINAL CASE
(For Offenses Committed On or After November 1, 1987)

Case Number: 3:16-CR-113-2-TBR
US Marshal No: 65925-112
Counsel for Defendant: Patrick J. Renn, Retained
Counsel for the United States: Mac Shannon
Court Reporter: Terri Turner

THE DEFENDANT:
☒ Pursuant to a Rule 11(c)(1)(C) plea agreement.
☒ Pleaded guilty to count(s) 1, 11, 12, 14, 15, 16-18 of the Superseding Indictment, knowingly, willingly and voluntarily on
March 1, 2018.

☐ Pleaded nolo contendere to count(s)
which was accepted by the court.

☐ Was found guilty on count(s)
after a plea of not guilty
ACCORDINGLY, the Court has adjudicated that the defendant is guilty of the following offense(s):

Title / Section and Nature of Offense

Date Offense
Concluded

Count

FOR CONVICTION OFFENSE(S) DETAIL - SEE COUNTS OF CONVICTION ON PAGE 2
The defendant is sentenced as provided in pages 2 through 8 of this Judgment. The sentence is imposed pursuant to the
Sentencing Reform Act of 1984.

☐ The defendant has been found not guilty on count(s)
☒ Count 13 of the Superseding Indictment is dismissed on the motion of the United States and the Indictment is dismissed
as to this defendant.
IT IS ORDERED that the defendant shall notify the United States Attorney for this district within 30 days of any change of
name, residence, or mailing address until all fines, restitution, costs and special assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant shall notify the Court and the United States Attorney of any material change in the
defendant's economic circumstances.

6/7/2018
Date of Imposition of Judgment

June 8, 2018

1

Case 3:16-cr-00113-TBR Document 196 Filed 06/11/18 Page 2 of 8 PageID #: 1219
USDC KYWD 245B (Rev. 02/16) Judgment in a Criminal Case Sheet 1A

Judgment-Page 2 of 8

DEFENDANT: Tomes Jr., John G.
CASE NUMBER: 3:16-CR-113-2-TBR

COUNTS OF CONVICTION
Date Offense
Concluded

Count

9/20/2016

1s

8/18/2016

11s

8/18/2016

12s

18:922 - FELON IN POSSESSION OF FIREARMS AND AMMUNITION

8/18/2016

14s

18:1956 - CONSPIRACY TO COMMIT MONEY LAUNDERING

9/20/2016

15s

18:1957 & 18:2 - ENGAGING IN MONETARY TRANSACTIONS IN PROPERTY DERIVED
FROM UNLAWFUL ACTIVITIES; AIDING & ABETTING

2/22/2016

16s-18s

Title / Section and Nature of Offense
21:846 - CONSPIRACY TO POSSESS WITH INTENT TO DISTRIBUTE
METHAMPHETAMINE AND HEROIN
21:841 & 18:2 - POSSESSION WITH INTENT TO DISTRIBUTE METHAMPHETAMINE;
AIDING & ABETTING
21:841 & 18:2 - POSSESSION WITH INTENT TO DISTRIBUTE HEROIN; AIDING &
ABETTING

2

Case 3:16-cr-00113-TBR Document 196 Filed 06/11/18 Page 3 of 8 PageID #: 1220
USDC KYWD 245B (Rev. 02/16) Judgment in a Criminal Case Sheet 2 - Imprisonment

Judgment-Page 3 of 8

DEFENDANT: Tomes Jr., John G.
CASE NUMBER: 3:16-CR-113-2-TBR

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total term
of 240 months as to each of Counts 1, 11, 12 and 15 in the Superseding Indictment, and 120 months as to each of Counts 14,
16, 17 and 18 all which shall be served concurrently, for a total term of 240 months imprisonment.

☒ The Court makes the following recommendations to the Bureau of Prisons:
The Defendant be placed in a facility wherein he may participate in a Residential Drug Abuse Treatment
Program (RDAP) for treatment of narcotic addiction and/or drug/alcohol abuse and be placed in a facility that
is near as possible to Memphis, TN.

☒ The defendant is remanded to the custody of the United States Marshal.
☐ The defendant shall surrender to the United States Marshal for this district:
☐ at

A.M. / P.M. on

☐ as notified by the United States Marshal.
☐ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
☐ Before 2:00 p.m. on
☐ as notified by the United States Marshal.
☐ as notified by the Probation or Pretrial Services Office.
☐ The defendant shall continue under the terms and conditions of his/her present bond pending surrender to the institution.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

To
, with a certified copy of this judgment.
UNITED STATES MARSHAL
By
Deputy U.S. Marshal

3

Case 3:16-cr-00113-TBR Document 196 Filed 06/11/18 Page 4 of 8 PageID #: 1221
USDC KYWD 245B (Rev. 02/16) Judgment in a Criminal Case Sheet 3 - Supervised Release

Judgment-Page 4 of 8

DEFENDANT: Tomes Jr., John G.
CASE NUMBER: 3:16-CR-113-2-TBR

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of 10 years as to each of Counts 1
and 11, 6 years as to Count 12, and 3 years as to each of Counts 14 thru 18, all which shall run concurrently, for a total term of
10 years supervised release.

MANDATORY CONDITIONS
1.
2.
3.

5.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.
☐ The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse.
☐ You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution. (check if applicable)
☒ You must cooperate in the collection of DNA as directed by the probation officer.

6.

☐ You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et seq.)

7.

as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which you reside,
work, are a student, or were convicted of a qualifying offense.
☐ You must participate in an approved program for domestic violence.

4.

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the
attached page.

4

Case 3:16-cr-00113-TBR Document 196 Filed 06/11/18 Page 5 of 8 PageID #: 1222
USDC KYWD 245B (Rev. 02/16) Judgment in a Criminal Case Sheet 3A - Supervised Release

Judgment-Page 5 of 8

DEFENDANT: Tomes Jr., John G.
CASE NUMBER: 3:16-CR-113-2-TBR

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your release from
imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and when you
must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the court or
the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living arrangements
(such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying the probation officer in
advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of becoming aware of a
change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to take any
items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from doing so. If
you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses you from doing so. If you
plan to change where you work or anything about your work (such as your position or your job responsibilities), you must notify the probation
officer at least 10 days before the change. If notifying the probation officer at least 10 days in advance is not possible due to unanticipated
circumstances, you must notify the probation officer within 72 hours of becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been convicted of a
felony, you must not knowingly communicate or interact with that person without first getting the permission of the probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was designed,
or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without first getting
the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may require you to
notify the person about the risk and you must comply with that instruction. The probation officer may contact the person and confirm that you
have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

5

Case 3:16-cr-00113-TBR Document 196 Filed 06/11/18 Page 6 of 8 PageID #: 1223
USDC KYWD 245B (Rev. 02/16) Judgment in a Criminal Case Sheet 3B - Supervised Release

Judgment-Page 6 of 8

DEFENDANT: Tomes Jr., John G.
CASE NUMBER: 3:16-CR-113-2-TBR

SPECIAL CONDITIONS OF SUPERVISION
14. The defendant must participate in a substance abuse treatment program as approved by
the Probation Office and follow the rules and regulations of that program. The defendant
shall contribute to the Probation Office's costs of service rendered based upon his/her
ability to pay as reflected in his/her monthly cash flow as it relates to the court approved
sliding fee scale.
15. The defendant shall abstain from the use of alcohol.
16. The defendant must submit to testing to determine if he/she has used a prohibited
substance. The defendant shall contribute to the Probation Office's costs of service
rendered based upon his/her ability to pay as it relates to the court approved sliding fee
scale. The defendant must not attempt to obstruct or tamper with the testing methods.
17. The defendant shall submit his or her person, property, house, residence, vehicle, papers,
computers [as defined in 18 USC 1030(e)(1)], other electronic communications or data
storage devices or media, or office to a search conducted by the United States Probation
Officer. Failure to submit to a search may be grounds for revocation of release. The
defendant shall warn any other occupants that the premises may be subject to searches
pursuant to this condition. An officer may conduct a search pursuant to this condition
only when reasonable suspicion exists that the defendant has violated a condition of their
release and that the areas to be searched may contain evidence of this violation. Any
search must be conducted at a reasonable time and in a reasonable manner.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Upon a finding of a violation of probation or supervised release, I understand that the Court may (1) revoke supervision, (2) extend the
term of supervision and/or (3) modify the conditions of supervision.
These conditions have been read to me. I fully understand the conditions and have been provided a copy of them.
___________________________________
Defendant

_________________________
Date

___________________________________
U.S. Probation Officer/Designated Witness

_________________________
Date

6

Case 3:16-cr-00113-TBR Document 196 Filed 06/11/18 Page 7 of 8 PageID #: 1224
USDC KYWD 245B (Rev. 02/16) Judgment in a Criminal Case Sheet 5 - Criminal Cometary Penalties

Judgment-Page 7 of 8

DEFENDANT: Tomes Jr., John G.
CASE NUMBER: 3:16-CR-113-2-TBR

CRIMINAL MONETARY PENALTIES
The defendant shall pay the following total criminal monetary penalties in accordance with the schedule of payments set forth
on Sheet 5, Part B.

Totals:

Assessment
$ 800.00

Fine

Restitution

☒ The fine and the costs of incarceration and supervision are waived due to the defendant's inability to pay.
☐ The determination of restitution is deferred until

. An Amended Judgment in a Criminal Case (AO 245C) will be

entered after such determination.

☒ Restitution is not an issue in this case.
☐ The defendant shall make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified
otherwise in the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(I), all nonfederal
victims must be paid in full prior to the United States receiving payment.
Priority Order
** Total
Amount of
Or Percentage
Name of Payee
Amount of Loss
Restitution Ordered
Of Payment

☐ If applicable, restitution amount ordered pursuant to plea agreement. . . . . $
☐ The defendant shall pay interest on any fine of more than $2,500, unless the fine is paid in full before the fifteenth day after the
date of judgment, pursuant to 18 U.S.C. 3612(f). All of the payment options on Sheet 5, Part B may be Subject to penalties for
default and delinquency pursuant to 18 U.S.C. 3612(g).

☐ The court determined that the defendant does not have the ability to pay interest and it is ordered that:
☐ The interest requirement is waived for the
☐ The interest requirement for the

☐ Fine and/or

☐ Fine and/or

☐ Restitution

☐ Restitution is modified as follows:

* Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18, United States Code, for
offenses committed on or after September 13, 1994 but before April 23, 1996.

7

Case 3:16-cr-00113-TBR Document 196 Filed 06/11/18 Page 8 of 8 PageID #: 1225
USDC KYWD 245B (Rev. 02/16) Judgment in a Criminal Case Sheet 6 - Schedule of Payments

Judgment-Page 8 of 8

DEFENDANT: Tomes Jr., John G.
CASE NUMBER: 3:16-CR-113-2-TBR

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties shall be due as follows:
A

☐ Lump sum payment of $
Due immediately, balance due
☐ not later than
, or
☐ in accordance with C, D, or E below); or

B

☐ Payment to begin immediately (may be combined with C, D, or E below); or

C

☐ Payment in

D

☐ Payment in

E

☒ Special instructions regarding the payment of criminal monetary penalties:

(E.g. equal, weekly, monthly, quarterly) installments of $
Over a period of
(E.g. months or years) year(s) to commence (E.g., 30 or 60 days)
after
The date of this judgment, or
(E.g. equal, weekly, monthly, quarterly) installments of $
Over a period of
(E.g. months or years) year(s) to commence (E.g., 30 or 60 days)
after
Release from imprisonment to a term of supervision; or

Any balance of criminal monetary penalties owed upon incarceration shall be paid in quarterly installments of at
least $25 based on earnings from an institution job and/or community resources (other than Federal Prison
Industries), or quarterly installments of at least $60 based on earnings from a job in Federal Prison Industries
and/or community resources, during the period of incarceration to commence upon arrival at the designated
facility.
Upon commencement of the term of supervised release, the probation officer shall review your financial
circumstances and recommend a payment schedule on any outstanding balance for approval by the court. Within
the first 60 days of release, the probation officer shall submit a recommendation to the court for a payment
schedule, for which the court shall retain final approval.
Unless the court has expressly ordered otherwise in the special instructions above, if this judgment imposes a period of
imprisonment, payment of criminal monetary penalties shall be due during the period of imprisonment. All criminal monetary
penalties, except those payments made through the Federal Bureau of Prisons Inmate Financial Responsibility Program, are
to be made to the United States District Court, Gene Snyder Courthouse, 601 West Broadway, Suite 106, Louisville, KY 40202,
unless otherwise directed by the Court, the Probation Officer, or the United States Attorney.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

☐ Joint and Several
Defendant and Co-Defendant Names and Case Numbers including defendant number), Total Amount, Joint and Several
Amount, and corresponding payee, if appropriate.

☐ The defendant shall pay the cost of prosecution.
☐ The defendant shall pay the following court cost(s):
☒

The defendant shall forfeit the defendant's interest in the following property to the United States: Forfeiture
shall be addressed by a separate order from the Court.
Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5)
community restitution, (6) fine interest, (7) penalties, and (8) costs, including cost of prosecution and court costs.

8

Case 3:16-cr-00113-JRW-HBB Document 250 Filed 08/31/20 Page 1 of 2 PageID #: 1758

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
LOUISVILLE DIVISION

UNITED STATES OF AMERICA

v.

PLAINTIFF

CRIMINAL ACTION NUMBER: 3:16-CR-113-JRW-2

JOHN G. TOMES, JR.

DEFENDANT

ORDER ON MOTION FOR SENTENCE REDUCTION UNDER 18 U.S.C. § 3582(c)(1)(A)
(COMPASSIONATE RELEASE)
Upon the Motion of the Defendant for a reduction in sentence under 18 U.S.C. §
3582(c)(1)(A) (DN 244), and after considering the applicable factors provided in 18 U.S.C. §
3553(a) and the applicable policy statements issued by the Sentencing Commission,
It is ORDERED that the Motion is DENIED after complete review of the Motion on the
merits, the Defendant’s Supplement to the Motion (DN 247), the United States’ Response
opposing the Motion (DN 248), and the Defendant’s Reply (DN 249).
The Defendant is 33 years old. He argues that “extraordinary and compelling reasons
justify compassionate release here. USSG §1B1.13 limits the “extraordinary and compelling
reasons” for compassionate release to four categories: (1) the inmate’s medical condition; (2) the
inmate’s age; (3) the inmate’s family circumstances; and (4) other reasons “[a]s determined by the
Director of the Bureau of Prisons.” See also BOP Program Statement 5050.50.
The Court has carefully considered the Defendant’s asserted reasons for release, including
COVID-19, his argument that his sentence should be or would be lower today than when it was
imposed, his rehabilitative efforts, his strong family support, and social inequities.

1

9

Case 3:16-cr-00113-JRW-HBB Document 250 Filed 08/31/20 Page 2 of 2 PageID #: 1759

These are not “extraordinary and compelling reasons” for compassionate release.
Although the Defendant says he has asthma, the Defendant has not identified any medical ailments
that are so severe they would justify release. He is not infected with COVID-19. BOP has taken
precautionary measures with regard to COVID-19. He has not shown that BOP is unable to treat
him if he gets COVID-19. The Court does not “minimize the risks that COVID-19 poses in the
federal prison system . . . . But the mere existence of COVID-19 in society and the possibility that
it may spread to a particular prison alone cannot independently justify compassionate release,
especially considering BOP’s statutory role, and its extensive and professional efforts to curtail
the virus’s spread.” United States v. Raia, 954 F.3d 594, 597 (3d Cir. 2020).
With regard to the Defendants’ other arguments, compassionate-release motion under §
3582(c)(1)(A)(i) is not the proper legal mechanism for arguments about whether the sentencing
court should have imposed — or would impose today — a shorter sentence. As for rehabilitation,
although the Court hopes that the Defendant has made the progress toward rehabilitation that he
describes, rehabilitation is not alone – or in combination with the Defendant’s other reasons — an
“extraordinary and compelling” reason. Neither is strong family support. And as for social
inequities, even if the Defendant is correct that famous criminals serve too little time in prison, the
proper systemic solution would be to lengthen their sentences, not shorten the sentences of others.
The Court has also considered each of the 18 U.S.C. § 3553(a) factors. Compassionate
release here would not reflect the seriousness of the crime, deter criminal activity, or protect the
public as well as the § 3553(a) sentencing factors. Although the Defendant has asserted reasons
for release, the Defendant has not carried his burden of demonstrating reasons that are
“extraordinary and compelling.”

2
8/31/2020

10

Case: 20-6056

Document: 13-2

Filed: 03/09/2021

Page: 1

RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 21a0061p.06

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,

┐
│
│

>

v.
JOHN G. TOMES, JR.,
Defendant-Appellant.

│
│
│
│
│
┘

No. 20-6056

Appeal from the United States District Court
for the Western District of Kentucky at Louisville.
No. 3:16-cr-00113-2—David J. Hale, District Judge.
Decided and Filed: March 9, 2021
Before: McKEAGUE, GRIFFIN, and NALBANDIAN, Circuit Judges.
_________________
COUNSEL
ON BRIEF: Matthew M. Robinson, ROBINSON & BRANDT, PSC, Covington, Kentucky, for
Appellant. L. Jay Gilbert, UNITED STATES ATTORNEY’S OFFICE, Louisville, Kentucky,
for Appellee.
_________________
OPINION
_________________
NALBANDIAN, Circuit Judge.

After pleading guilty in 2018 to federal drug and

firearms charges, John Tomes Jr. was sentenced to twenty years in prison. Now, just a few years
later, he asks for a reduced sentence and immediate release. His vehicle is a motion for
compassionate release under 18 U.S.C. § 3582(c)(1)(A). After reviewing Tomes’s motion and
briefing, the district court denied his motion. Tomes appeals, and we AFFIRM.

11

Case: 20-6056

No. 20-6056

Document: 13-2

Filed: 03/09/2021

United States v. Tomes

Page: 2

Page 2

I.
John Tomes Jr. has a colorful criminal past. His most recent run-in with the law landed
him in federal prison after he got caught up in a drug distribution and money laundering scheme
in Louisville. After a grand jury indicted Tomes on drug, firearm, and money laundering
charges, Tomes pled guilty. Following this plea, the district court sentenced Tomes to twenty
years in prison. But after serving just a small fraction of his sentence, Tomes moved for
compassionate release.

He says the presence of COVID-19 in prisons, coupled with his

increased susceptibility to serious illness from the virus because of chronic asthma, constitutes an
“extraordinary and compelling reason” for release. He also says the law has changed since his
sentencing, and he would receive a shorter sentence today than he received a few years ago.
The district court ordered the government to respond to Tomes’s motion. But “after
complete review” of the motion and its accompanying briefing, the court denied the motion.
(R. 250, Order at 1, PageID # 1758.) It said that U.S.S.G. § 1B1.13 “limits the ‘extraordinary
and compelling reasons’ for compassionate release” to just a few situations. (Id.) And Tomes
had not “identified any medical ailments that are so severe they would justify release.” (Id. at 2,
PageID # 1759.)

Tomes had not contracted the virus; the Bureau of Prisons was taking

precautionary measures to prevent an outbreak; and Tomes did not show that the Bureau could
not treat him if he got sick. The court also rejected Tomes’s contention that his rehabilitation,
strong family support, and apparently inequitable sentence were extraordinary and compelling
reasons for release. And for good measure, the court “also considered each of the 18 U.S.C.
§ 3553(a) factors” and found that they did not favor release either. (Id.) Tomes now appeals.
II.
We review a district court’s denial of a compassionate release motion for abuse of
discretion. United States v. Ruffin, 978 F.3d 1000, 1005 (6th Cir. 2020). A district court’s
consideration of a compassionate release motion embraces three criteria: extraordinary and
compelling reasons for release; the § 3553(a) factors; and any applicable policy statements.
18 U.S.C. § 3582(c)(1)(A); see United States v. Jones, 980 F.3d 1098, 1107–08 (6th Cir. 2020).
And we can affirm a district court’s denial of a compassionate release motion based on the

12

Case: 20-6056

No. 20-6056

Document: 13-2

Filed: 03/09/2021

Page: 3

United States v. Tomes

Page 3

defendant’s failure to meet any one of those criteria. United States v. Elias, 984 F.3d 516, 519
(6th Cir. 2021); Ruffin, 978 F.3d at 1006.
A.
“The passage of the First Step Act in 2018 expanded access to compassionate release by
allowing inmates to bring compassionate-release motions on their own behalf.” Elias, 984 F.3d
at 518. A district court deciding a defendant’s motion for compassionate release must do three
things before granting the motion. It must determine that “extraordinary and compelling reasons
warrant such a reduction.” 18 U.S.C. § 3582(c)(1)(A)(i). Likewise, it must also find that “such a
reduction is consistent with applicable policy statements issued by the Sentencing Commission.”
Id. § 3582(c)(1)(A). And then the court may grant the motion after considering all relevant
sentencing factors listed in 18 U.S.C. § 3553(a). Id.; see also Jones, 980 F.3d at 1108. If the
court finds that the defendant fails at any one of these three steps, it need not address the others
before denying the motion. Elias, 984 F.3d at 519. And in considering and weighing the
§ 3582(c)(1)(A) criteria, “[t]he district court has substantial discretion.” Ruffin, 978 F.3d at
1005.
At first blush, this framework seems simple enough. But one snag has beleaguered courts
since the passage of the First Step Act. Before the Act’s passage in 2018, only the Director of
the Bureau of Prisons could move a district court to modify a defendant’s sentence. Id. at 1003.
Now, though, the Act allows for defendants themselves to do so. Id. at 1003–04. Yet the Act
still prompts district courts to consider “applicable policy statements issued by the Sentencing
Commission.” 18 U.S.C. § 3582(c)(1)(A). The problem is, the Sentencing Commission has not
updated its policy statement on compassionate release motions—U.S.S.G. § 1B1.13—since
Congress passed the First Step Act. Jones, 980 F3d at 1109. So § 1B1.13 still, by its terms,
applies only “[u]pon motion of the Director of the Bureau of Prisons.” U.S.S.G. § 1B1.13. In
other words, the guideline says nothing about defendant-initiated motions.

Meanwhile,

commentary to § 1B1.13 limits what constitutes “extraordinary and compelling reasons” for
release to just four situations. See U.S.S.G. § 1B1.13 cmt. n.1. So the question became whether
a district court is limited to just those four situations when determining whether a defendant

13

Case: 20-6056

No. 20-6056

Document: 13-2

Filed: 03/09/2021

Page: 4

United States v. Tomes

Page 4

moving for compassionate release has shown extraordinary and compelling reasons for a
sentence reduction.
We have grappled with this issue in a series of recent cases. See Ruffin, 978 F.3d at
1006; Jones, 980 F.3d at 1101; Elias, 984 F.3d at 519. And in Elias, we concluded that
“§ 1B1.13 is not an applicable policy statement for compassionate-release motions brought
directly by inmates, and so district courts need not consider it when ruling on those motions.”
984 F.3d at 519 (emphasis added). Thus, “district courts are not bound by § 1B1.13 in defining
extraordinary and compelling reasons for release.” Id. at 521.
This all matters here because in denying Tomes’s motion, the district court believed that
“USSG § 1B1.13 limits the ‘extraordinary and compelling reasons’ for compassionate release to”
the four categories in the guideline’s application notes. (R. 250, Order at 1, PageID # 1758.)
That is no longer true. We have now held that § 1B1.13 is not an “applicable policy statement”
for defendant-filed motions for compassionate release. Elias, 984 F.3d at 519. And so the
district court erred when it constrained itself to the § 1B1.13 factors in determining whether
Tomes established “extraordinary and compelling reasons” for a sentence modification.1
That is not to say, however, that the court’s error requires reversal. We have reversed a
district court’s denial of a defendant’s compassionate release motion when the court’s reliance
on § 1B1.13 was the sole reason for its denial. See, e.g., United States v. Sherwood, 986 F.3d
951, 953 (6th Cir. 2021) (“[W]here a district court relies on [§ 1B1.13] as the sole basis for
denying relief, we must remand the case for further consideration.”); United States v. Whited,
835 F. App’x 116, 117 (6th Cir. 2021) (reversing and remanding after “district court denied relief
on the sole ground that Whited failed to prove that he was not a danger to the community, [and]
1
That is not to say a district court cannot permissively consider those four categories as part of its
discretionary inquiry into whether a case presents extraordinary and compelling reasons for release. Rather, the
court may not proceed as though § 1B1.13 constrains its analysis of what constitutes extraordinary and compelling
reasons for release. See Elias, 984 F.3d at 519–20. But because district courts are free “to define ‘extraordinary and
compelling’ on their own initiative,” id., they may look to § 1B1.13 as relevant, even if no longer binding. See
United States v. Byrd, --- F. App’x ----, No. 20-20470, 2021 WL 435105, at *2 (5th Cir. Feb. 8, 2021) (per curiam)
(affirming a denial of compassionate release after a court looked to § 1B1.13 as providing “helpful guidance” but
did not treat it “as the dispositive boundary of what may be judicially determined to be extraordinary and compelling
reasons for a sentence reduction.” (quoting United States v. Gonzalez, 819 F. App’x 283, 284 (5th Cir. 2020) (per
curiam))).

14

Case: 20-6056

No. 20-6056

Document: 13-2

Filed: 03/09/2021

United States v. Tomes

Page: 5

Page 5

its decision appear[ed] to rest exclusively on § 1B1.13(2)”). In these cases, the district courts did
not reference § 3553(a) at all as an independent basis for their denial of the compassionate
release motion.
But even if a district court wrongly constrains itself to § 1B1.13 to define extraordinary
and compelling reasons for release, we can still affirm if the court uses § 3553(a) as an
independent reason to deny relief. Thus, in Ruffin, 978 F.3d at 1008, we noted that “[e]ven if
Ruffin could prove that the district court mistakenly limited itself to the commentary’s list of
extraordinary and compelling reasons, that legal conclusion would not entitle him to a reversal.”
That was because the court “alternatively denied Ruffin relief based on a discretionary balancing
of the § 3553(a) factors.” Id.; see also United States Sorrell, --- F. App’x ----, No. 20-1832,
2021 WL 807867 ------, at *2 (6th Cir. Mar. 3, 2021) (“[B]ecause the district court also explained
that it would deny relief based on its weighing of the § 3553(a) factors, its application of
§ 1B1.13 does not require reversal.”).
This all flows from the statutory scheme. Before a district court can grant a defendant’s
motion for compassionate release, it must find that the defendant satisfies all three of
§ 3582(c)(1)(A)’s prerequisites. 18 U.S.C. § 3582(c)(1)(A); see Jones, 980 F.3d at 1108. So
“district courts may deny compassionate-release motions when any of the three prerequisites
listed in § 3582(c)(1)(A) is lacking and do not need to address the others.” Elias, 984 F.3d at
519. And for that reason we have said repeatedly that we can affirm a court’s denial of a
defendant’s compassionate release motion based on the court’s consideration of the § 3553(a)
factors alone. See id.; Ruffin, 978 F.3d at 1008.
We do so here. The district court denied Tomes’s motion “after complete review” of the
motion and other briefing the court ordered. (R. 250, Order at 1, PageID # 1758.) The court
noted that it had “considered each of the 18 U.S.C. § 3553(a) factors,” and a sentence
modification “would not reflect the seriousness of the crime, deter criminal activity, or protect
the public.” (R. 250, Order at 2, PageID # 1759.) Neither did the remaining § 3553(a) factors
favor release. So even though the district court incorrectly predicted how we would come to

15

Case: 20-6056

No. 20-6056

Document: 13-2

Filed: 03/09/2021

United States v. Tomes

Page: 6

Page 6

understand the interplay between the First Step Act and the current § 1B1.13, it still denied
Tomes’s motion based on its alternative weighing of the § 3553(a) factors.2
We spot no abuse of discretion in the court’s doing so. Tomes and his associates dealt in
large quantities of various drugs, including methamphetamine, heroin, cocaine, and marijuana.
And Tomes did so while armed, despite his status as a felon. Likewise, Tomes laundered tens of
thousands of dollars, fruits of his illegal trade. So releasing Tomes after he served just a few
years of a twenty-year sentence would not “reflect the seriousness of the offense.” 18 U.S.C.
§ 3553(a)(2)(A). And it was not an abuse of discretion for the court to find that an armed felon
involved in a complex drug distribution scheme might still pose a danger to the public, despite
Tomes’s protestation that he has been rehabilitated. Nor was it an abuse of discretion for the
court to reason that a defendant with a rap sheet like Tomes’s might still pose a risk to the public
if he was released. And finally, it was not an abuse of discretion for the district court to note that
Tomes’s release would not deter criminal activity—indeed, quite the opposite, it could put
criminals on notice that they can commit serious crimes and serve only a few years in prison for
it.
Tomes’s arguments to the contrary are unpersuasive. He says he has chronic asthma,
which increases his risk of serious illness from COVID-19. But Tomes “did not provide any
records in [his] motion to support that [he] has” chronic asthma. Elias, 984 F.3d at 520. All he
provided were a couple of letters from his parents. So the “district court could have denied
[Tomes’s] motion for compassionate release on this basis.” Id. Likewise, Tomes’s contention
that the BOP cannot handle COVID-19 outbreaks does not persuade us either. See Elias,
984 F.3d at 521 (“It was not an abuse of discretion for the district court to conclude that
speculation that COVID-19 could spread to FPC Alderson was insufficient to justify Elias’s
release.”).
2

Although the district court confined its § 3553(a) analysis to just a single paragraph, that was enough.
Indeed, we have affirmed orders with less. See United States v. Navarro, 986 F.3d 668, 669 (6th Cir. 2021)
(affirming form order denial of a compassionate release motion). And given the simplicity of the case, the district
court’s acknowledgement of Tomes’s arguments, its consideration of the § 3553(a) factors, and the intuitive reason
for the court’s denial of Tomes’s motion, “the judge’s explanation . . . fell within the scope of the lawful
professional judgment that the law confers upon the sentencing judge.” United States v. Chavez-Meza, 138 S. Ct.
1959, 1967–68 (2018).

16

Case: 20-6056

No. 20-6056

Document: 13-2

Filed: 03/09/2021

United States v. Tomes

Page: 7

Page 7

One last point. Tomes says he should receive compassionate release because if he were
sentenced today for the same crime, he would not have gotten the sentence he did. The district
court noted that § 3582(c)(1)(A) was not an appropriate vehicle for Tomes to attack his sentence.
Tomes says this was error. And he points out that before the First Step Act, a violation of
21 U.S.C. § 841(b)(1)(A) (one of the statutes to which Tomes pled guilty to violating) carried a
mandatory minimum sentence of twenty years if the defendant had a prior conviction for a
“felony drug offense.” See 21 U.S.C. § 841(b)(1)(A) (pre-2018 version). Section 401 of the
First Step Act, however, amended § 841, and it now imposes a shorter mandatory minimum of
fifteen years, and only when the prior offense was a “serious drug felony.” Id. (current version).
Tomes argues that his prior state convictions for dealing in cocaine and trafficking in a
controlled substance do not qualify as “serious drug felonies.” Thus, the mandatory floor no
longer applies to him, and even if it did, it is shorter now than it was when the district court
sentenced him.
Tomes’s argument fails. The First Step Act explicitly says that the amendment to which
Tomes refers—§ 401—applies “only where ‘a sentence for the offense has not been imposed as
of [the] date of [the Act’s] enactment.” United States v. Wiseman, 932 F.3d 411, 417 (6th Cir.
2019) (quoting First Step Act of 2018, Pub. L. No. 115-391, § 401(c), 132 Stat. 5221). The
district court sentenced Tomes on June 7, 2018. The First Step Act’s effective date is December
21, 2018. Wiseman, 932 F.3d at 417. Tomes’s sentence had therefore been imposed as of the
Act’s enactment, making § 401 inapplicable. Id.; see also United States v. Richardson, 948 F.3d
733, 748 (6th Cir. 2018) (“Congress has, in essence, drawn a line in the sand. Defendants
sentenced after December 21, 2018, may benefit from Congress’s amendment to
§ [841(b)(1)(A)], but defendants sentenced before that date cannot.”). And we will not render
§ 401(c) useless by using § 3582(c)(1)(A) as an end run around Congress’s careful effort to limit
the retroactivity of the First Step Act’s reforms.
III.
We AFFIRM the district court’s denial of Tomes’s motion for compassionate release.

17

Case: 20-6056

Document: 16-1

Filed: 04/08/2021

Page: 1

No. 20-6056
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

UNITED STATES OF AMERICA,

FILED

Apr 08, 2021
DEBORAH S. HUNT, Clerk

)
)
)
)
)
)
)
)
)
)
)
)

Plaintiff-Appellee,
v.
JOHN G. TOMES, JR.,
Defendant-Appellant.

ORDER

BEFORE: McKEAGUE, GRIFFIN, and NALBANDIAN, Circuit Judges.

The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court.* No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

*

Judge Thapar recused himself from participation in this ruling.

18

